Rosenn Jenkins ROBERT D. SCHAUB

Cross Creek Pointe

1065 High 315, Suite 200
& Greenwald LLP Wer are’ Pa te70e
ATTORNEYS AT LAW Tel: 570.826.5652

Fax: 570.826.5640
rschaub@riglaw.com

March 15, 2021

Scott S. Harris

Clerk of the Court

Supreme Court of the United States
One First Street, NE

Washington, D.C. 20543

Re: Jim Bognet, et al. vy. Veronica Degraffenreid, Acting Secretary of Pennsylvania, et

al., No. 20-740

Dear Mr. Harris:

I am writing on behalf of the Susquehanna County Board of Elections (“Susquehanna County”) in
the above-referenced case.

In lieu of a formal Brief in Opposition, for the sake of brevity and in the interests of judicial
economy, please accept this letter as the formal position of Susquehanna County. Susquehanna
County joins and adopts the position and reasoning of the Third Circuit Court of Appeals as it
relates to all of Petitioners’ claims in its Petition for a Writ of Certiorari. See Bognet v. Secretary
Commonwealth of Pennsylvania, 980 F.3d 336 (3d Cir. 2020).

Thank you for your time and attention to this matter.

Respectfully,

ERT D. SCHAUB

CG: Counsel of Record for all parties

WILKES-BARRE
WWW.RJGLAW.COM 1057342.1
